      U.S. DEPARTMENT OF THE INTERIOR
      OFFICE OF INSPECTOR GENERAL

                            EVALUATION REPORT

MOVING TO A CUSTOMER-CENTERED
WEB PRESENCE




                           Report No. 2003-I-0051
                                        June 2003
                                                                          A-IN-MOA-0008-2003



            United States Department of the Interior
                                Office of Inspector General
                                   134 Union Boulevard, Suite 510
                                     Lakewood, Colorado 80228


                                                                                              7430

                                                                                     June 9, 2003


Memorandum

To:      Chief Information Officer, Department of the Interior

From:    Diann Sandy
         Manager, National Information Systems Office

Subject: Evaluation Report on Moving to a Customer-Centered Web Presence
         (Report No. 2003-I-0051)

     The subject report presents the results of our evaluation of the Department of the Interior’s
(DOI) management and control of its Web sites. Although DOI has made some recent
improvements, much remains to be accomplished. Specifically, the Department needs to
manage its Web sites more efficiently, cost-effectively and securely; adhere to Federal laws and
regulations; and focus on its customers.

      We identified a framework for improvement based on practices employed by other Federal
and state agencies as well as standards established by the Office of Management and Budget,
the National Institute of Standards and Technology, and industry. We recommend that DOI
implement a plan, using the framework described in this report, to improve management of its
web sites. Please provide a written response to the report by July 15, 2003.

     The legislation, as amended, creating the Office of Inspector General requires that we
report to the Congress semiannually on all reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

     We appreciate the cooperation provided by all DOI staff during our evaluation. If you
have any questions regarding this report, please call me at (303) 236-9243.
        MOVING TO A CUSTOMER-CENTERED WEB PRESENCE
                                                   TABLE OF CONTENTS

CHALLENGES FACING THE DEPARTMENT OF THE INTERIOR ........................................ 1

          NUMBER OF WEB SITES NOT CONTROLLED ......................................................................... 1
          SECURITY NOT ADEQUATE ................................................................................................... 6
          WEB SITES NOT COMPLIANT WITH FEDERAL LAWS AND REGULATIONS ............................. 8
          WEB SITES NOT FOCUSED ON CUSTOMERS ......................................................................... 9

BUILDING ON DOI’S EFFORTS ................................................................................... 13

          WEB PRESENCE ACTIVITIES ............................................................................................... 13
          MORE NEEDS TO BE DONE ................................................................................................ 14

FRAMEWORK FOR IMPROVEMENT ............................................................................. 15

          STARTING THE MANAGEMENT AND CONTROL PROCESS ............................................. 15
          MOVING TO A CUSTOMER-CENTERED WEB PRESENCE ...................................................... 17
          ENHANCING SECURITY ....................................................................................................... 21

RECOMMENDATION ................................................................................................................... 22

APPENDICES
          APPENDIX 1, EVALUATION SCOPE AND METHODOLOGY .................................................... 23
          APPENDIX 2, DIAGRAM OF THE DEPARTMENT OF THE INTERIOR’S
           WEB PRESENCE ............................................................................................................... 25
          APPENDIX 3, DEPARTMENT OF THE INTERIOR’S
           “OTHER” WEB SITES ........................................................................................................ 27
          APPENDIX 4, SCORECARD OF THE DEPARTMENT OF THE INTERIOR’S
           WEB SITES ...................................................................................................................... 28

GLOSSARY OF TERMS USED .................................................................................................... 31
 MOVING TO A CUSTOMER-CENTERED WEB PRESENCE
CHALLENGES FACING THE
DEPARTMENT OF THE INTERIOR
The Department of the Interior (DOI) needs to take charge of its Web presence (use of the
Internet through World Wide Web technology and commonly referred to as the Web) to:

      ¾   Control the current unmanaged growth of Web sites;
      ¾   Reduce security risks;
      ¾   Comply with Federal requirements such as those governing privacy; and
      ¾   Focus on its customers - citizens, businesses, other government entities, and internal
          users.

                                         NUMBER OF WEB SITES NOT CONTROLLED

                                   DOI needs to reign in the proliferation of its Web sites to assure
                                   that Web site content and information are coordinated among
                                   bureaus and offices to minimize duplication, inconsistency, and
                                   redundancy of information. We found that DOI does not have a
                                   comprehensive inventory of its Web sites or of other components
                                   of its Web presence. (See Appendix 2 on page 25 for a diagram of
                                   DOI’s Web presence). Using software (Web crawler) that
                                   automatically fetches Web sites, we estimated that DOI currently
                                   has approximately 31,000 Web sites presenting between 3 to 5
                                   million pages of information. Figure 1 shows the percentage of
                                   Web sites maintained by major components of DOI. Appendix 3
                                   on page 27 provides information on the sites classified as Other
                                   DOI Web Sites identified in Figure 1.
                                                                 USGS
                                                                  43%



                           USBR                                                 BLM
                            2%                                                  4%


                          Other
                       DOI Web
                           Sites
                           15%                                              Departmental
                                                                              Offices
                                   OSM                                         5%
                                    1%                             FWS
                                                     MMS
                                                                   26%
                                                      1%
                                          NPS
                                          3%

Figure 1. Distribution of DOI’s Web Presence.


                                                                                                        1
                               To provide a sense of DOI’s Web sites and pages, we mapped,
                               using a Web crawler, a portion of DOI’s home page and site, as
                               shown in Figure 2.




Figure 2. Snapshot of a Portion of DOI’s Web Presence.




                                                                                                2
                                   We researched industry standards and practices and analyzed the
ANNUAL SPENDING                    cost of current DOI contracts for outsourcing and maintaining
ESTIMATED BETWEEN                  Web sites to develop our cost estimate for annually maintaining
$110 MILLION TO                    DOI’s Web presence. Our research of industry indicated that the
$220 MILLION                       average cost to operate and maintain a Web site is generally
                                   between $100,000 to $200,000 annually. The $100,000 cost is for
                                   basic sites that have no supporting database, limited storage
                                   requirements, few individuals posting to the Web, and one
                                   domain1. The average cost increases to $200,000 annually based
                                   on the complexity of the site and the numbers of individuals
                                   posting information. For extremely complicated sites, the costs
                                   could reach $500,000. These figures include the costs of
                                   acquiring:

                                        ¾ Information technology resources, such as computer
                                          hardware and software, necessary to operate and secure
                                          Web sites and internal networks.

                                        ¾ Human resources needed to design, maintain, and control
                                          Web site content and information and to manage Web-
                                          related hardware and software.

                                   Costs for DOI contracts ranged from $55,000 annually (for
                                   managing content, interfaces to other Web sites, and access to a
                                   third-party Web server) to $200,000 (for content management for
                                   mapping and geographic information capabilities and databases).
                                   DOI’s contracts did not always include costs for hardware and
                                   software to operate its Web sites.

                                   We conservatively estimated, based on 1,100 domains, that DOI’s
                                   annual cost to operate and maintain its Web presence is $110
                                   million. Using a less conservative basis of $200,000 per domain,
                                   DOI’s annual cost could be as high as $220 million.

                                   DOI has an excessive amount of duplicated, inconsistent,
CONTENT NOT                        outdated, and redundant information on its Web sites. For
CONTROLLED                         example:

                                        ¾ On the Office of Aircraft Services Web site, www.oas.gov,
                                          chapters of the Departmental Manual, Code of Federal
                                          Regulations, and Office of Management and Budget
                                          circulars, bulletins, and memoranda are duplicated rather

1
  A domain is a set of network addresses that is organized in levels. The top level identifies purpose commonality
(for example, the organization that the domain covers such as “.gov”). The second level identifies a unique place
within the top level domain and is equivalent to a unique address (such as “doi.gov”) on the Internet. Lower levels
on the domain may also be used (such as “smis.doi.gov).


                                                                                                                      3
   than the Office of Aircraft Services creating links to the
   sites that maintain these documents, such as DOI’s Web-
   based electronic library (http://elips.doi.gov).

¾ On a Bureau of Land Management’s Web site,
  inconsistent information is provided to customers on the
  procedures to apply for adopting a wild horse or burro.
  On one Web page, the customer is informed that the
  application form could be downloaded, printed and
  completed, and mailed to the appropriate Bureau office or
  that the customer could apply online for adopting a horse
  or burro using the Internet. On another Web page, the
  customer is informed that he or she would have to contact
  the applicable Bureau field office to request the
  application form.

¾ We found that DOI Web sites were out dated or did not
  indicate whether the site was actively maintained,
  therefore not assuring that the information presented is
  current and relevant. For example, 8 sites had not been
  updated for more than a year and 27 sites did not indicate
  the date the site was last updated.

¾ Redundant information on the same DOI activities is
  located on numerous DOI Web sites and pages. We
  performed key word searches on bureaus’ and offices’
  Web sites of selected activities that were identified on
  DOI’s home page. The analysis, as presented in Figure 3,
  showed that information on the same topic is presented on
  hundreds and thousands of Web sites by the seven major
  bureaus and offices.




                                                                4
                                             Number of Sites and Pages by Bureau
                                             With Information on the Same Activity
 DOI BUSINESS ACTIVITY       OSM          MMS       USGS           BOR      NPS     BLM        FWS
Endangered Species           125          103       1,154           294    1,000+   3,776     1,000+
Fisheries                      0            0        2,892         287      892     2,096     1,000+
Habitat Conservation           0            0         288           13      42       421      1,000+
Wildlife                      384          209      87,063         701     1,000+   14,942    1,000+
Plants                        204          312      25,978         760     1,000+   4,554     1,000+
Ground Water Resources         15           3       48,271          32      49        0          0
Water Supply                  149          10        4,755         1,260    683      417        748
Water Reclamation and
                               5            0          5            45      10        2         20
Reuse
Oil and Gas                    50          530       3,422          0       298     6,431       872
Petroleum                      35          238       5,283          64      363      855        445
Helium                         0            0         598           0       52       201         0
Hydroelectric                  0            0        1,031         547      315      109        356
Renewable Energy               0            0         49            7       98        72        23
Energy Resources               37          44        2,012          5       74       206        45

Figure 3. Results of Queries on Bureaus’ and Offices’ Web Sites.

                                   Web sites and links were not available as presented. For example:
PROFESSED
INFORMATION NOT                       ¾ Web sites that were no longer accessible by the customer
ALWAYS AVAILABLE                        were not removed. For example, instead of being linked
                                        to the selected information, customers visiting
                                        www.doi.gov/searchall.html were informed that the Web
                                        site was no longer available and to notify a Web master of
                                        the problem. Although we brought these problems to the
                                        attention of Web masters, such as webteam@nbc.gov,
                                        links to these Web sites were not removed.

                                      ¾ Links to Web sites resulted in the customer receiving
                                        notice that the site could not be found. For example, on
                                        DOI Web site, www.doi.gov/business, we were not able to
                                        access five Web sites under the National Business Center.

                                   We believe these problems can be attributed to the fact that DOI
                                   has inadequate and inconsistent configuration and content
                                   management controls. We noted that DOI has not assigned
                                   responsibility for managing Web content to ensure that
                                   information is properly and consistently presented and that
                                   information is not duplicated.



                                                                                                       5
Further, we found that there was limited coordination between
Web site managers to ensure that links to other Web sites and
pages were available and for periodically testing linked Web sites
for availability.

                            SECURITY NOT ADEQUATE
DOI does not have adequate security to safeguard its Web
presence and its networks. We ascribed this condition to the lack
of uniform Web security policies, procedures, and controls and
the lack of standard configuration management. This increases
DOI’s security risks. For example, we found that:

   ¾ Individuals could identify network devices from the
     Internet by using readily available network surveying
     software tools. This increases the ability of individuals to
     compromise these devices and obtain unauthorized access
     to DOI’s networks. For instance, using one of these tools,
     we identified the following devices in three of the Bureau
     of Land Management’s networks:

       o   2 Web servers
       o   2 E-mail servers
       o   6 firewalls
       o   12 File Transport Protocol servers

   ¾ Web sites maintained by or for third parties did not have
     adequate security safeguards. DOI has no specific policy
     or control technique for outsourcing or hosting Web sites
     or restricting the registration of domains outside of the
     government domains (“.gov” or “.fed.us”). When DOI
     sites are hosted on thirty party networks or when DOI
     hosts third parties’ Web sites, there is little assurance that
     an interconnection between the third parties’ networks and
     DOI’s networks is not created. Security risks increase
     under these types of arrangements and should be mitigated
     through safeguards specified in contractual agreements.
     We identified:

       o Web sites that were hosted by commercial third parties
         and were not within the government domains. For
         example, a National Park Service Web site,
         www.windowsintowonderland.org, is hosted on a
         commercial third-party’s server. In addition, the site
         was not under DOI’s control because the site was not
         operating on a DOI IP (Internet Protocol) address.


                                                                      6
   o Web sites that were hosted by commercial third parties
     and were within the government domains did not have
     contractual agreements. As such, DOI lacks assurance
     that its Web sites were protected from access from the
     multiple other Web sites that were operating on the
     third-party’s server. For example, Bureau of Land
     Management’s “Adopt a Horse” Web site,
     www.adoptahorse.blm.gov, was managed by a
     contractor and was hosted on a third-party’s server but
     a contract did not exist for the hosting services.

   o DOI was hosting Web sites for not-for-profit
     organizations, which may not be bound by the same
     security requirements as the Federal Government. For
     example, the Bureau of Reclamation hosted the Platte
     River Endangered Species Partnership
     (www.platteriver.org) and the Geological Survey’s
     Northern Prairie Wildlife Research Center hosted six
     not-for-profit sites including the North American
     Reporting Center for Amphibian Malformations
     (www.npwrc.usgs.gov/narcam). This increases the
     risk to DOI’s networks because third parties have
     access to update their Web sites.

¾ DOI was posting sensitive information on its Web sites.
  For example, the Minerals Management Service had
  information related to vulnerabilities of Supervisory,
  Control and Data Acquisition systems for offshore oil and
  gas production.

¾ Numerous types of Web server software with various
  versions and updates were operating throughout DOI.
  This increases the risk to DOI networks because known
  vulnerabilities in older versions of the software may not
  have been mitigated. Also, it creates inefficiencies in
  configuration management because each Web server’s
  software must be individually evaluated, tested, and
  updated. In addition, DOI’s ability to consolidate servers
  for central management and control may be inhibited
  because of these differences. Using network-surveying
  tools we identified that DOI has approximately 500 Web
  servers. We also obtained information on 405 of these
  servers indicating that DOI has at least three major types
  of Web server software with multiple versions of each
  type, as shown in Figure 4.




                                                               7
                                                         Netscape-Enterprise
          Apache                  Microsoft IIS
                                                                Server
   Current Version: 2.0.45     Current Version: 5.0       Current Version: 6.1
     Versions Installed         Versions Installed         Versions Installed
   1.1.1       1.3.26                   3                         2*
   1.2.5       1.3.27                   4                         3.6**
   1.2.6       1.3.9                    5                         4
   1.3.11      1.3a.1                                             4.1
   1.3.12      1.3b6                                              6.0
   1.3.17      2.0.39
   1.3.19      2.0.40
   1.3.20      2.0.42                                 * Netscape-Fastrack
                                                      **Service Pack (SP) levels applied
   1.3.22      2.0.43                                 from no SP to SP3
   1.3.23      2.0.44

Figure 4. Sample of Web Server Software Installed on DOI Web Servers.

                          ¾ DOI Web server configurations (file structures) could be
                            mirrored using network-surveying software, such as a
                            Web crawler. This is a problem because information on
                            Web server configuration allows an individual to easily
                            determine specific vulnerabilities and launch attacks
                            against Web sites. In addition, it allows Web files that
                            were not intended to be used by customers to be at risk of
                            disclosure and misuse.

                                        WEB SITES NOT COMPLIANT WITH
                                       FEDERAL LAWS AND REGULATIONS

                     DOI’s Web sites do not always comply with Federal laws and
                     regulations pertaining to the privacy of its customers and
                     accessibility to information by persons with disabilities. For
                     example, we found that:

                          ¾ At least one Web site (pages www.blm.gov/nstc/soil/
                            Kids/adopt.html and www.blm.gov/nstc/soil/Kids/
                            gallery.html) was not in compliance with the Children’s
                            Online Privacy Protection Act [15 U.S.C. Chapter 91 §
                            6502]. Specifically, the site did not require children under
                            the age of 13 to obtain parental consent before submitting
                            requested personal information.

                          ¾ Three Web sites that issued persistent cookies (small Web
                            server files stored on customers’ computers) had no
                            documented approval for use of these cookies, and only
                            one of these sites disclosed the use of persistent cookies.




                                                                                           8
   ¾ Eight of the nine primary access points (DOI and bureaus
     home pages) do not meet all the requirements of Section
     508 of the Rehabilitation Act Amendments of 1998 [29
     U.S.C. § 794 (d)]. These requirements include providing
     access to electronic information to employees and other
     individuals with disabilities.

      WEB SITES NOT FOCUSED ON CUSTOMERS
DOI’s Web sites, with some exceptions, do not focus on its
customers and do not allow them easy access to DOI information
and opportunities. We evaluated 70 DOI Web sites to determine
whether they applied best practices in 34 customer service areas
covering user help features such as search and index, service
navigation features including maps and events, and other user-
friendly attributes such as the capability to E-mail the Webmaster.
We concluded that overall DOI Web sites were adequate for 11
features, in need of improvement for 12 features, and inadequate
for 11 features (see Appendix 4 on page 28 for details).

We also compared DOI’s home page with the Department of
Health and Human Service’s (HHS) home page. This
comparison, Figures 5 and 6, demonstrates the difference between
a Web presence that is bureaucracy-centered (what the
government does – DOI) and one that is customer-centered (what
the government can do for the customer – HHS).




                                                                  9
                             BUREAUCRACY-CENTERED




    DOI-focused      The site is organized by agency function and centers on what DOI does rather
                     than what it can provide to its customers. DOI’s services and opportunities
                     cannot be located easily on its home page.
    Complicated      DOI’s home page is appealing but not functional for the customer. The tab
    Web Site         pointer links (for example “Endangered Species”) provide helpful information,
    Presentation     but not specific information on the services and opportunities provided
                     throughout DOI. In addition, the mission of DOI is not easily found.
    Slow Web         The home page was not designed with customers using 56K modems for
    Site             Internet access. The home page takes more than a minute to download using a
    Accessibility    56K modem connection because of the extensive use of graphics.
    Complex          Extensive knowledge and effort is needed to search for information using DOI’s
    Search for       search function because it is limited to only bureaus’ primary domains, such as
    Information      nps.gov, usbr.gov, and usgs.gov. Much information exists in other DOI
    and Services     domains that do not contain the bureaus’ acronyms (for examples see Appendix
                     3 on page 27). Also, the search function is only located on the home page. The
                     customer is unable to perform a search from any of the other links on the home
                     page. Rather, the customer must go back to the home page to perform the
                     search.

Figure 5. Department of the Interior’s Home Page (Bureaucracy-Centered).




                                                                                                       10
                               CUSTOMER-CENTERED




    Customer-        The site is organized by areas of interest to the customer and the services
    focused          provided. HHS news releases are also included on the home page, but they
                     are not the focal point of the site.
    Functional       The home page is professional and conveys a business-like approach by
    Web Site         focusing on the customer. The home page has a standardized design that
    Presentation     includes its logo, mission, and navigation features, such as ability to ask
                     questions and a site map.
    Fast Web Site    The home page downloads in less than 15 seconds using a 56K modem
    Accessibility    because of the limited use of graphics.

    Easy Search      The search function is a standard feature on the top of the home page. It
    for              allows the customer to perform a search on all HHS domains. There is also
    Information      an extended search function that allows the customer to narrow down a search
    and Services     of frequently asked questions by specific areas of information and services,
                     such as Aging and Diseases and Conditions.

Figure 6. Department of Health and Human Services’ Home Page (Customer-Centered).




                                                                                                    11
12
BUILDING ON DOI’S EFFORTS
The goals of the President’s Expanding Electronic Government (E-government) Initiative are to
add value to customers’ experiences with government and for government to better serve
customers’ needs while improving government efficiency. A key to accomplishing these goals is
use of the Internet through World Wide Web technology. The purpose of a Web presence is to
use Web-based resources cost effectively, deliver high-quality services, meet the needs of
customers, comply with policies, and help accomplish missions and objectives. In the 1990s, the
“World Wide Web” was released, and since then, the number of Web sites has grown
exponentially, from an estimated 600 sites in 1993 to a million in 1997 and the number of sites
continues to grow.

                                                        WEB PRESENCE ACTIVITIES

                                   Improvements by DOI include:
IMPROVEMENTS BEING
MADE                                   ¾ Formalizing an E-government strategy team made
                                         up of senior level managers from the various
                                         program areas throughout DOI, Bureau and Office
                                         Chief Information Officers (CIOs), and field
                                         managers. The purpose of the team is to lead DOI’s
                                         transformation to a customer-centered electronic
                                         service delivery provider, in accordance with
                                         customer and industry expectations, by using
                                         information technology (IT) to enable mission
                                         accomplishment, and to develop an E-government
                                         Strategic Plan.

                                       ¾ Addressing Web and electronic government
                                         requirements of the future in its Interior Enterprise
                                         Architecture.

                                       ¾ Beginning to consolidate Web servers and reducing
                                         the numbers of Internet access gateways.

                                       ¾ Implementing its policy requiring that all Web
                                         servers be contained in a Demilitarized Zone
                                         (DMZ).

                                       ¾ Issuing policies to improve its IT security practices.

                                       ¾ Initiating projects to consolidate the access to
                                         information on some DOI Web sites to better
                                         provide opportunities to customers.



                                                                                                 13
                            ¾ Considering the initiation of a project to implement a
                              content management system.

                         We found that some of the DOI’s Web sites have features
SOME WEB SITES PROVIDE
                         which allow customers to easily locate specific information
EASY ACCESS TO           or to query for information through various techniques. For
INFORMATION              example, the U.S. Fish and Wildlife Service’s home page
                         allows the customer to select news articles by date and
                         subject, the Bureau of Reclamation has a similar feature to
                         aid customers in locating specific Reclamation manuals, and
                         the Bureau of Land Management allows customers to
                         submit requests and questions to the Bureau’s Web team
                         through a variety of electronic methods.

                                               MORE NEEDS TO BE DONE

                         Despite these efforts, we believe that DOI needs to redesign
                         its Web presence to focus on the customer, enhance
                         security, maintain privacy, reduce duplication, and, at the
                         same time, better manage its costs. To aid DOI in this
                         endeavor, we developed and presented in the next section of
                         this report a framework for improvement based on best
                         practices identified through our reviews of various Federal
                         and state agencies’ Web sites; Federal agencies’ Web
                         procedures and practices; and Office of Management and
                         Budget, National Institute of Standards and Technology,
                         and industry standards.




                                                                                  14
FRAMEWORK FOR IMPROVEMENT
Our framework is based on a more centrally controlled and managed Web presence and focuses
on ways for DOI to enhance its processes to not only improve its management of costs and
security but also to aid in transforming its bureaucracy-centered Web presence to a customer-
centered Web presence.

                         STARTING THE MANAGEMENT AND CONTROL PROCESS

                                           Inventory Web resources, justify domains and sites, and
GETTING STARTED                            implement management controls over these resources.
                                           To accomplish these tasks, we suggest that DOI:

                                             ¾ Inventory IP addresses, Web domains and sites,
                                               and Web server operating systems and record the
       .net and   .edu
         .com      1%
                         .org                  physical location of these resources. To help
                          2%
          3%                                   accomplish the inventory, DOI should issue a
                                               moratorium on new Web domains and sites except
                                               for urgent business reasons.

                                             ¾ Discontinue use of .org, .net, .com or other non-
                                               government domains where possible. If there is a
                                .gov and
                                               need to use non-government domains, these
                                 .fed.us       should be supported by a business case and
                                   94%
                                               formally approved by the DOI CIO.
  Figure 7. Distribution of DOI’s Web        ¾ Implement contracts for maintaining all
  Presence by Domain Type.
                                               outsourced and hosted Web sites and ensure that
  Six percent of DOI’s Web domains are         the contract language adequately addresses
  not government domains.                      security requirements, including requirements to
                                               use DOI IP addresses, ensure that DOI’s Web
                                               content is protected, and make sure that system
                                               configurations are consistent with DOI security
                                               policies and practices.

                                             ¾ Establish a position for and select a DOI Web
                                               Master. The position should report directly to the
                                               DOI CIO. The position’s authority and
                                               responsibilities should include issuing and
                                               enforcing DOI policies and standards related to
                                               Web resources, such as approving all new Web
                                               domains, coordinating selection of content
                                               management software solutions and portal
                                               technologies, and Web server configuration.




                                                                                                15
                                                                     ¾ Require network management staff to coordinate
                                                                       with the DOI Web Master when assigning IP
                                                                       addresses for Web domains.

                                                                     ¾ Establish a position for and select a DOI Content
                                                                       Manager. We believe this position should be
                                                                       located within the Immediate Office of the
                                                                       Secretary to ensure DOI’s Web sites appropriately
                                                                       present the Secretary’s message. In addition, this
                                                                       position should issue and enforce policies to
                                                                       control the format and style of DOI Web sites, to
                                                                       establish an approval process for content
                                                                       published on Web sites, and to control the
                                                                       numbers of Web pages. This individual should
                                                                       have the authority to disable and remove pages
                                                                       from public access and manage information in
                                                                       accordance with DOI records policies. The
                                                                       Content Manager should also act as liaison
                                                                       between the DOI Web Master and all levels of
                                                                       program managers.

                                                                     ¾ Determine the need for all existing domains, Web
NEXT HURDLES                                                           sites, and Web pages and disable those that are
                                                                       not needed, not functional, or not accessible.
                                                                       Information on the Web should be based on the
                                          USGS.gov
                                            43%                        DOI enterprise lines of business. All DOI Web
                                                                       sites should be justified by business cases that
      USBR.gov
        2%
                                                          BLM.gov
                                                            4%
                                                                       include supporting metrics.
Other DOI Web
   Domains
     15%                                              Departmental
                                                                     ¾ Develop and implement DOI policies and
                                                        Offices
                                                         5%            standards to establish minimum controls for its
            OSM.gov
              1%
                                MMS.gov
                                            FWS.gov
                                             26%
                                                                       Web presence. These policies and standards
                      NPS.gov
                        3%
                                  1%
                                                                       should ensure compliance with Federal laws and
                                                                       regulations. In addition, the policies should
    Figure 8. Distribution of the Known
    1,100 DOI domains.
                                                                       address Web page format, standardization, and
                                                                       content; training program for Web presence
    Fifteen percent of DOI’s domains do not                            management; Web security; and operational
    reside within DOI and Bureau/Office                                procedures, such as change and configuration
    specific domains.                                                  management. Policies should also include other
                                                                       areas such as cost/benefit analysis, E-mail
                                                                       inquiries, E-government initiatives, and hosting or
                                                                       outsourcing Web sites.




                                                                                                                       16
             MOVING TO A CUSTOMER-CENTERED WEB PRESENCE
                           ¾ Use the Web presence to focus on the customer by
FOCUSING ON THE CUSTOMER     providing enhanced quality and availability of
                             products, services, and opportunities; improved
                             timeliness of information; better accessibility; and
                             improved mission achievement. We suggest that
                             DOI:

                              o Identify the products, services, and
                                opportunities that it offers customers, and
                                identify those that could be made available
                                through the Web.

                              o Identify DOI customers and determine their
                                wants and expectations.

                              o Align or focus products, services, and
                                opportunities toward customers. For example,
                                on DOI’s “Collaborative Efforts - Conserving
                                Endangered Species through Partnerships” it
                                informs customers of what the results were of
                                partnership activities instead of how the
                                customer could become a partner in this
                                conservation program.

                           ¾ Centrally locate access points to the existing
                             products, services, and opportunities that
                             customers want based on the results of the above
                             suggestions. DOI should consider portal
                             technology so that a customer who is not familiar
                             with DOI can easily find specific information
                             without extensive knowledge of DOI or the Web.
                             (See Figure 3 on page 5 for business activities of
                             DOI that can be found throughout DOI’s Web
                             presence at multiple access points.)

                            ¾ Review current Web sites and pages for the
                              characteristics listed below. Based on the results
                              of the review, take action either by correcting the
                              site or page or removing it. The review should
                              determine whether:

                              o Information is timely.


                                                                               17
                                o Information is accurate, consistent, and not
                                  redundant.
                                o Web pages are accessible within a reasonable
                                  amount of time via any connectivity method.
                                o Sites are accessible to all customers, to the
                                  maximum extent possible, by meeting Section
                                  508 of the Rehabilitation Act Amendments of
                                  1998.
                                o Privacy policies, including children’s privacy,
                                  are easily reached on any Web access point.
                                o Information is not requested and collected
                                  from children without parental consent.
                                o Customers are notified upon departure from
                                  DOI sites.
                                o Persistent cookies are not used without the
                                  required approvals. The DOI CIO should
                                  disable Web sites that contain persistent
                                  cookies until the DOI Web Master is provided
                                  assurance that: (1) sites give clear and
                                  conspicuous notice of the use of persistent
                                  cookies; (2) there is a compelling need to
                                  gather the data on the site; (3) appropriate and
                                  publicly disclosed privacy safeguards exist for
                                  handling any information derived from the
                                  cookies; and (4) appropriate bureau or office
                                  heads or the Director of DOI’s National
                                  Business Center have formally approved the
                                  use of each persistent cookie.

                          See Appendix 4 on page 28 for the results of our review
                          of some of these features on selected DOI Web sites.

                          Develop an E-government strategic plan to use IT to
ESTABLISHING A STRATEGY   transform the way DOI works to improve services to its
                          customers. DOI should complete a strategic plan that
                          includes:

                            ¾ E-government mission and vision that aligns with
                              DOI’s Strategic Plan, IT Strategic Plan, and the
                              Interior Enterprise Architecture objectives.

                            ¾ Applicable legal requirements including security,
                              privacy, and records management.

                            ¾ Goals and associated objectives supporting the
                              mission and vision.



                                                                               18
                                           ¾ Metrics to measure performance for achieving the
                                             goals. These metrics should, at a minimum,
                                             measure:

                                               o Use of resources to maintain Web presence.
                                               o How well the Web sites meet the needs of
                                                 customers.
                                               o How much the Web sites are contributing to
                                                 customers taking advantage of the
                                                 opportunities offered through DOI’s Web
                                                 presence and enabling DOI to better
                                                 accomplish its mission.

                                           ¾ Short- and long-term steps and success factors to
                                             achieve the desired outcomes.

                                         A best practice contributing to transforming from a
ENSURING TRANSFORMATION                  bureaucracy-centered to a customer-centered Web
CONTINUES                                presence is developing and implementing a strategy for
                                         managing Web content and design to focus on
                                         customers’ wants. To achieve this transformation, we
                                         suggest that DOI develop Web content management and
                                         design policies and procedures that include:

                                           ¾ Periodically reassessing what customers want
                                             using methodologies such as analyzing: (1)
                                             systems logs, for example, to determine the
                                             numbers of times and the amounts of time each
                                             site is visited or is accessed; (2) key word
                                             searches; (3) frequently requested information;
                                             and (4) online customer satisfaction surveys.

Figure 9. Cycle To Ensure Web Presence     ¾ Creating a uniform look across DOI to include a
Remains Customer Focused.                    standardized Web site design. The design should
                                             ensure that when Web sites are accessed the
                                             customer is made aware that it is a DOI Web site.
                                             While bureau-specific information can be
                                             provided, it should not confuse the customer that
                                             they are somewhere other than DOI. This can be
                                             accomplished by developing templates to
                                             standardize the look and feel of DOI Web sites
                                             and pages as well as filtering out unwanted
                                             content.




                                                                                               19
¾ Periodically evaluating the accessibility of the
  Web sites for broken links, orphan pages,
  connectivity issues, and user friendliness features,
  and ensuring deficiencies are corrected.

¾ Ensuring information that is posted on DOI Web
  sites is consistent, up-to-date, and not redundant.

¾ Moving or eliminating unnecessary or unwanted
  information not of interest to the public customer.
  Pertinent information for DOI employee users
  should be placed on a DOI intranet.

¾ Improving the efficiency of maintaining and
  posting information and the ability for users to
  customize the information they want by requiring,
  to the extent possible, pages to be dynamic (where
  information is found through queries to a
  database) rather than static (which is similar to
  hard-copy information where changes require
  rewriting the Web page).

¾ Defining what is sensitive information that should
  not be posted on the public Web sites.

¾ Standardizing all Web sites that are designed for
  children to include requirements for parental
  consent before information is requested and
  collected from children under the age of 13 thus
  complying with the Children’s Online Privacy
  Protection Act.

¾ Ensuring privacy statements and Freedom of
  Information Act [5 U.S.C. § 552 as amended by
  Public Law 104-231, 110 Stat. 3048] procedures
  are accessible from each Web page and ensuring
  that disclaimer statements are consistent with the
  DOI Information Quality Guidelines.

¾ Ensuring information is grouped around lines of
  business and services and allowing access through
  portal technology rather than through multiple
  sites.




                                                    20
                                             ENHANCING SECURITY

                    Implement procedures to protect information and servers
NEAR-TERM           from loss, misuse, or modification and unauthorized
                    access through minimizing vulnerabilities and mitigating
                    threats to an acceptable level. To enhance the security of
                    its Web sites, DOI should:

                      ¾ Inventory Internet access points and eliminate or
                        consolidate to reduce the total numbers of Internet
                        access points throughout DOI.

                      ¾ Document the Internet access points on network
                        topologies, including connections to hosted and
                        outsourced servers.

                      ¾ Ensure that the required security architecture,
                        which should include DOI Web sites and those
                        sites that are outsourced and hosted, are in a DMZ.

                      ¾ Develop a naming standard for hosts or network
                        devices to prevent the easy identification of
                        operating systems or functions from the Internet.
                        For example, a device with the name “doi-firewall-
                        sw” could easily be identified as a firewall.

                      ¾ Perform periodic risk assessments on Internet
                        access points and implement appropriate controls
                        to protect internal networks.

                      ¾ Perform risk assessments and privacy impact
                        assessments prior to deployment of new Web sites.

                      ¾ Ensure Web server software and related operating
                        systems are updated with the most recent patches
                        or fixes. (See Figure 4 on page 8 for current
                        versions available of Web server software and
                        examples of what is used on DOI Web servers.)

                      ¾ Establish configuration standards for DOI Web
KEEPING DOI’S WEB       architecture and develop configuration
PRESENCE SECURE         management policies and procedures.




                                                                           21
                                         ¾    Consolidate, physically and logically, DOI and
                                              bureau Web servers to the maximum extent
                                              possible.

                                         ¾    Ensure DOI’s Web presence is addressed in
                                              security plans and is incorporated into the
                                              Certification and Accreditation process for DOI’s
                                              networks.

Using our framework, DOI should be able improve its Web presence by focusing on the
customer, enhancing security, maintaining privacy, reducing duplication, and, in the long term
lowering costs.




RECOMMENDATION
We recommend that the DOI CIO develop and implement a plan, based on the framework
identified in this report, for centrally controlling and managing DOI’s Web presence.




                                                                                                 22
                                                                                  APPENDIX 1


                   EVALUATION SCOPE AND METHODOLOGY

SCOPE OF EVALUATION
Our evaluation included all the Department of the Interior’s (DOI) and its components’ (bureaus
and offices) Web sites and pages that were available for access by the public and were connected
to the Internet during November 2002 through March 2003. Web sites that were not available
and therefore not included in our evaluation were those of the Bureau of Indian Affairs, the
Office of Hearing and Appeals, and the Office of Special Trustee for American Indians. In
addition, we limited our review of the Office of Indian Education .edu Web sites to determining
the numbers of domains and Web sites. Office of Indian Education .edu Web sites were not
subjected to Web presence analysis because they serve a different function than the other DOI
sites. Finally, we limited our review to only http:// and https:// which are the basic means for
customers to interact with the World Wide Web and to download requested information.

We reviewed DOI and its components’ policies and procedures related to managing and
controlling Web sites. We also interviewed DOI personnel responsible for maintaining Web
sites and servers. We evaluated DOI processes and its publicly available Web sites and
compared these to best practices that we developed from our reviews of various Federal and state
agencies Web sites; Federal agencies’ Web procedures and practices; and Office of Management
and Budget, National Institute of Standards and Technology, and industry standards.

We performed this evaluation in accordance with the “Government Auditing Standards” issued
by the Comptroller General of the United States. Accordingly, we included tests and other
procedures that were considered necessary under the circumstances.

WEB DOMAINS AND SERVER REVIEW

To identify DOI’s domains and Web servers and to determine whether security was adequate, we
used several network surveying software tools to identify and analyze DOI’s and its components’
domains, Web sites, servers, and networks.

We used Web crawler software programs to identify DOI’s Web domains and sites and Web site
configurations. We also used these tools to identify Web sites hosted by DOI that may be
unauthorized and DOI Web sites that were hosted outside of DOI. From this information, we
identified DOI’s IP addresses related to DOI’s Web presence. In addition, we used a network-
mapping tool to identify hosts that were not identified by the Web crawler tool. This tool also
provided us with lists of hosts, servers, and other network devices such as routers, switches,
firewalls, and printers that were identifiable from the Internet.




                                                                                             23
                                                                                  APPENDIX 1


WEB SITE REVIEW METHODOLOGY

We developed a checklist based on identified best practices for Web site content and features
(see Appendix 4 on page 28 for results of our evaluation). We evaluated these features on the
following selected 70 Web sites:

    ¾ 56 tab pointer links from the eight tabs listed on www.doi.gov – Collaborative Efforts,
      American Indians, Fish/Wildlife, National Parks, Public Lands, Energy, Science, and
      Water
    ¾ 9 bureau and DOI home pages
    ¾ 5 judgmentally selected DOI and bureau Web sites

                                    WEB SITES REVIEWED

                                                              Number of
                                                                 Sites
                         Bureau                                Reviewed
                         U.S. Geological Survey (USGS)            23
                         National Park Service (NPS)               9
                         Bureau of Land Management (BLM)           8
                         Minerals Management Service (MMS)         8
                         U.S. Fish and Wildlife Service (FWS)      7
                         Department of the Interior (DOI)          7
                         Bureau of Reclamation (BOR or USBR)       5
                         BLM and Forest Service                    1
                         National Business Center (NBC)            1
                         Office of Surface Mining Reclamation
                                                                   1
                         and Enforcement (OSM)
                                                       Total    70


In addition to the 70 sites, we judgmentally selected numerous other DOI Web sites and pages.
We reviewed these Web sites and pages for features, such as redundant, duplicated, sensitive,
and inconsistent information; ease in accessing information; compliance with Federal laws and
regulations; hosting other organizations’ Web sites; and Web content and site design. Further,
we evaluated business cases for selected DOI Web sites, if business cases were developed, and
contracts and costs for DOI Web sites hosted on third-party Web servers.




                                                                                                 24
                                                                                    APPENDIX 2


            DIAGRAM OF THE DEPARTMENT OF THE INTERIOR’S
                           WEB PRESENCE




                                            .gov            Top Level Domain




                                           doi.gov              Second Level

                                                                                       Domains
                                                                                        (1,100)
Web Sites
 (31,000)


                                        smis.doi.gov                 Subordinate
                                                                       Levels




                                smis.doi.gov/KEN/KEN.htm                            Subdirectories
                                                                                       or Files



                                                                                           Pages
                                                                                         (3 million
                        smis.doi.gov/ken/acc_code/meta_activity.asp                          to
                                                                                          5 million)




             Infrastructure (networks and devices {routers, switches, firewalls},
                         Web Servers [500], and operating systems)



                                                                                                  25
26
                                                                                 APPENDIX 3


                            DEPARTMENT OF THE INTERIOR'S
                                “OTHER” WEB SITES

The Department of the Interior’s (DOI) Web presence includes approximately 1,100 domains
(addresses). Of these addresses, 15 percent do not include the “DOI” or bureau, such as “BLM,”
“NPS,” or “USBR,” acronyms as shown in Figure 1 on page 1 of the report. Examples of the
“Other” Web sites follow:


  americasoutdoors.gov           handsontheland.gov              partnersinflight.org
  anstaskforce.gov               historicpreservation.gov        pbin.nbii.gov
  baca.gov                       icbemp.gov                      permits.gov
  bacaranch.gov                  industrialecology.gov           piedrasblancas.gov
  bianifc.org                    infms.gov                       pnwin.nbii.gov
  bioeco.gov                     interior.gov                    recreation.gov
  birdcon.nbii.gov               invasivespecies.gov             redondopeak.gov
  cain.nbii.gov                  invasivespecies.nbii.gov        reo.gov
  cal-parks.ca.gov               lacoast.gov                     safenet.nifc.gov
  cesu.org                       landfire.gov                    safety.oas.gov
  cleanwater.gov                 lewisandclark200.gov            sain.nbii.gov
  clear.search.gov               liss.org                        science.gov
  clearinghouse1.fgdc.gov        mbr.nbs.gov                     sciencerules.gov
  clearinghouse2.fgdc.gov        mesc.nbs.gov                    seagrantnews.org
  clearinghouse3.fgdc.gov        metadata.nbii.gov               search.nbii.gov
  clearinghouse4.fgdc.gov        mrlc.gov                        senrlg.gov
  cswgcin.nbii.gov               msc.nbs.gov                     sierranevadawild.gov
  ec21.gov                       nationalatlas.gov               sierrawildbear.gov
  ein.nbii.gov                   nbii.gov                        snow.water.ca.gov
  emtc.nbs.gov                   nbs.gov                         swin.nbii.gov
  eric.ed.gov                    ndep.gov                        urban.nbii.gov
  far.nbii.gov                   nemi.gov                        usfilm.gov
  fgdc.gov                       nepa.gov                        usitc.gov
  firejobs.gov                   nfpors.gov                      usparkpolicenyfo.gov
  fireleadership.gov             nifc.gov                        vallegrande.gov
  frogweb.gov                    nifc.org                        vallesgrandenationalpreserve.gov
  gai.fgdc.gov                   nigc.gov                        vcnp.gov
  gapanalysis.gov                nrin.nbii.gov                   volunteer.gov
  gcmrc.gov                      nrtc.gov                        westnilevirus.nbii.gov
  genetics.nbii.gov              nwcg.gov                        wildlandfire.gov
  geocommunicator.gov            nwfireplan.gov                  wildlandfires.gov
  geomac.gov                     oas.gov                         wildlifedisease.nbii.gov
  geo-one-stop.gov               oregontrail.gov                 windowsintowonderland.org
  govworks.gov                   osti.gov                        yourland.gov




                                                                                             27
                                                                                          APPENDIX 4


                          SCORECARD OF THE
                 DEPARTMENT OF THE INTERIOR’S WEB SITES

We developed a rating system to evaluate specific features on Department of the Interior’s (DOI)
Web sites. Our ratings were determined from information collected from 70 DOI Web sites
based on Office of Inspector General (OIG)-developed checklists containing specific best
practices attributes. If the Web site had a specific attribute, it received a score of 5 and if it did
not have the attribute it received a 0. Answers, such as “possibly,” “somewhat,” or “limited,”
received a score of 2.5. In addition to determining a rating score for each attribute, we developed
a color-coded system to better depict the areas that were adequate, in need of improvement, or
inadequate. The following table provides the color code, the corresponding rating interval, and
description.

                                               Rating
                                               Score             Description
                                                  0-2.0 Inadequate
                          COLOR               2.01-3.75 In Need of Improvement
                           KEY                   3.76-5 Adequate
                                                           Not Applicable

The following table is a summary of the results of our evaluation of DOI’s Web sites by an OIG-
determined sample group: DOI Tab Pointer Links found on DOI’s home page, DOI and bureau
home pages, and other judgmentally selected sites. The features we evaluated were categorized
by User Help Features, Service Navigation Features, and Other User Friendly Attributes.

                                                             DOI Tab
                                                                         Home    Other   Overall
                                                             Pointer
                                                                         Pages   Sites   Score
                                                              Links
          User Help Features
            1. Comments and Feedback
            2. Search
            3. Index
            4. Site Map
            5. About the Site
            6. Frequently Asked Questions (FAQ)
            7. Help
                  Overall Ranking for User Help Features
          Service Navigation Features
            8. Welcome
            9. Just For Kids
            10. Maps
            11. In the Newsroom/In the News
            12. Freedom of Information Act (FOIA)
            13. Events



                                                                                                   28
                                                                                APPENDIX 4

                                                     DOI Tab
                                                               Home    Other   Overall
                                                     Pointer
                                                               Pages   Sites   Score
                                                      Links
  14. What's New
  15. About Services
  16. Links to Other Agencies/Regions
Overall Ranking for Service Navigation Features
Other User Friendly Attributes
  17. Page does not link to intranet log-in
  18. Duplicate information not found on pages
   tested
  19. Information was current or not expired
  20. Contact information - Phone number and
   addresses available
  21. Obvious link to contact information
  22. No personally sensitive information on page
  23. Link to Privacy Policy statement
  24. External links with proper exit notices
  25. No persistent cookies
  26. Link to Disclaimer statement
  27. Site compliant Section 508 of the
   Rehabilitation Act
  28. Page links to next hierarchy (within Bureau)
  29. Home page has link to DOI
  30. Customers can E-mail the Webmaster
  31. Customers can E-mail the Pagemaster
  32. Customers can E-mail other individuals
  33. Foreign language access
  34. Easy to use and accessible




                                                                                         29
30
                           GLOSSARY OF TERMS USED
                                               A-D

COOKIE

A message given to a Web browser by a Web server. The browser stores the message in a text
file on the users’ computers. The message is then sent back to the server each time the browser
requests a page from the server. The main purpose of cookies is to identify users and possibly
prepare customized Web pages for them. Generally, there are two types of cookies, session and
persistent. The session cookie exists only when the user is browsing the Internet. The persistent
cookie exists during the time the user is browsing the Internet as well as after the user closes the
browser.

DMZ

A Demilitarized Zone is a network configuration used to provide security while allowing Internet
traffic to access services such as a Web site (http), file transport protocol (FTP) servers,
electronic mail (E-mail), and Domain Name Servers (DNS). The DMZ is the first line of defense
between the Internet and an organization’s internal networks and is usually a combination of
firewalls and other computer hardware or software devices.

DOMAIN

A domain is a set of network addresses that is organized in levels. The top level identifies
purpose commonality (for example, the organization that the domain covers such as “.gov”).
The second level identifies a unique place within the top level domain and is equivalent to a
unique address (such as “doi.gov”) on the Internet. Lower levels on the domain may also be
used (such as “smis.doi.gov).

                                               E-H
FIXES – SEE PATCHES

HOST

A computer that is attached to a computer communications network that can use services
provided by the network to exchange data with other attached computers and networks.

HTTP

Hypertext Transfer Protocol is the standard Internet Protocol for the exchange of information
using World Wide Web (Web) technology.

HTTPS

An extension of the Hypertext Transfer Protocol that is designed to transmit individual messages
securely.

                                                                                                  31
                                                I-L

INTERNET

The Internet is a network of networks. It is a system of linked computer networks, international
in scope, that facilitates data transfer and communication services, such as remote login, file
transfer (FTP), electronic mail (E-mail), newsgroups, and the World Wide Web.

INTERNET ACCESS GATEWAYS OR POINTS

A network device interface that connects the internal network and the Internet to provide users
connected to the internal private network access to the Internet. It allows traffic both ways and it
is usually referred to as a gateway.

IP ADDRESS

Is the abbreviation for Internet Protocol address commonly referred to as an IP. It is a numeric
address that is given to servers and hosts connected to the Internet. For servers, it is translated
into a domain name by a Domain Name Server (DNS). For hosts, it is assigned by the Internet
Service Provider (ISP).

                                               M-P

NETWORK DEVICE

Any machine or component that attaches to a communications network. Examples of network
devices include servers, firewalls, routers, switches, hubs, bridges, and modems.

ORPHAN PAGE

The name for a Web page that has been abandoned but still remains available.

PATCH

A supplemental software code that, when installed to the original software program, fixes
problems (bug). A patch can usually be downloaded off the Internet in order to fix a software
problem or security vulnerability.

PORTAL TECHNOLOGY

A technology strategy for facilitating the dissemination of information, providing self-service
capabilities, and improving communications and interaction with and in between customers.




                                                                                                      32
                                               Q-T

THREAT

A potential for violation of security, which exists when there is a circumstance, capability,
action, or event that could breach security and cause harm. That is, a threat is a possible danger
that might exploit a vulnerability. A threat can be either "intentional" (for example, an individual
cracker or a criminal organization) or "accidental" (for example, the possibility of a computer
malfunctioning or natural disaster such as an earthquake, a fire, or a tornado).

TOPOLOGY

The shape of a local-area network (LAN) or other communications system network. Topologies
are either physical or logical. Three basic topologies are shown below:




                                               U–Z
URL

Abbreviation of Uniform Resource Locator, it is the global address of documents and other
resources on the World Wide Web. The first part of the address indicates what protocol to use,
for example http, and the second part specifies the IP address or the domain name where the
resource is located.

For example, the two URLs below point to two different files at the domain usbr.gov. The first
specifies an executable file that should be fetched using the File Transfer Protocol; the second
specifies a Web page that should be fetched using the Hypertext Transfer Protocol:

                        ftp://ftp.usbr.gov/stuff.doc
                        http://www.usbr.gov/main/index.html

VULNERABILITY

A flaw or weakness in a system's design, implementation, or operation and management that
could be exploited to violate the system configured security policy.

                                                                                                   33
WEB CRAWLER (ALSO KNOWN AS WEB SPIDER)

A program that automatically fetches Web pages. Crawlers or spiders are used to feed pages to
search engines. Because most Web pages contain links to other pages, a crawler can start almost
anywhere. As soon as the crawler sees a link to another page, it goes off and fetches that page.
Large search engines, like Alta Vista, have many crawlers working in parallel.

WEB PAGE

A document on the World Wide Web. Every Web page is identified by a unique URL.

WEB PRESENCE

An organizations’ established World Wide Web existence, through Web sites or a collection of
Web files. It includes all components needed to provide the information published or posted on
Web sites to be accessed or used by customers.

WEB SERVER

A Web server or Internet server is a computer that stores files of various types and makes them
available over the Internet. A Web server stores the Web pages and provides them to users using
Web "browser" software via the Internet.

WEB SITE

A location on the World Wide Web. Each Web site contains a home page, which is the first
document users see when they enter the site. The site might also contain additional documents
and files that may also be considered Web sites. A site can be owned and managed by an
individual, company, or organization. This term is frequently used to identify anything located
on the World Wide Web including a Web domain or a Web page within a domain.

WORLD WIDE WEB

A hypertext-based system for finding and accessing Internet-based data and information
resources. It is capable of providing the public with user-friendly graphics-based access to
information on the Internet. It is the most popular means for storing and linking Internet-based
information.




                                                                                                   34
                               How to Report
                   Fraud, Waste, Abuse and Mismanagement

Fraud, waste, and abuse in government are the concern of everyone – Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240

             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081

             Internet:     www.oig.doi.gov/hotline_form.html




                          U.S. Department of the Interior
                            Office of Inspector General
                                1849 C Street, NW
                              Washington, DC 20240
                                     www.doi.gov
                                    www.oig.doi.gov
